United States Attorney’s Office
Eastern District of Virginia

U.S. Attorney Neil H. MacBride

FOR IMMEDIATE RELEASE:                           November 20, 2009

Peter Carr

Public Information Officer

Phone: (703) 842-4050 Fax: (703) 549-5202

E-Mail: usavae.press@usdoj.gov

Website: www.usdoj.gov/usao/vae



     Former PTO Employee Sentenced 18 Months in $500,000 Embezzlement Scheme

     ALEXANDRIA, Va. – Karen L. Parish, 39, of Woodbridge, Va., was sentenced today to 18
months in prison, followed by three years of supervised release, for embezzling $500,000 from
the U.S Patent and Trademark Office. She was also ordered to pay $527,478.55 in restitution.

    Neil H. MacBride, United States Attorney for the Eastern District of Virginia, and Scott
Berenberg, Assistant Inspector General for Investigations for the U.S. Department of Commerce,
made the announcement sentencing by United States District Judge T.S. Ellis, III.

     Parish pled guilty to conspiracy to commit wire fraud on Aug. 27, 2009. According to court
records, Parish was a financial analyst for the U.S Patent and Trademark Office. She managed
an account to which PTO customers deposited funds that were to be used to pay expenses
incurred in processing their patent and trademark applications. Over a period of seven years,
Parish transferred funds from this account to accounts controlled by co-conspirator Michael
Reid, 50, of Fort Washington, Md. Parish fraudulently concealed the transfers by falsely making
them look like refund payments to PTO customers. During the course of the conspiracy, Parish
and Reid stole $534,338.55 from the PTO.

Reid pled guilty on Aug. 10, 2009, and was also sentenced today by United States District Judge
Claude M. Hilton to 18 months in prison, followed by three years of supervised release. Reid
will also be required to pay, jointly with Parish, $527,478.55 in restitution.

     The case was investigated by the U.S. Department of Commerce Office of Inspector
General. Assistant United States Attorney Edmund P. Power is prosecuting the case on behalf of
the United States.
A copy of this press release may be found on the website of the United States Attorney's Office
for the Eastern District of Virginia at http://www.usdoj.gov/usao/vae. Related court documents
and information may be found on the website of the District Court for the Eastern District of
Virginia at http://www.vaed.uscourts.gov or on http://pacer.uspci.uscourts.gov.

                                             ###
